Department of Health and Human Services Office of Inspector General Washington, D C 202 01




May 17, 2012

TO:                                                                                          Peter Budetti
                                                                                             Deputy Administrator and Director
                                                                                             Center for Program Integrity
                                                                                             Centers for Medicare & Medicaid Services

                                                                                             Deborah Taylor
                                                                                             Director and Chief Financial Officer
                                                                                             Office of Financial Management
                                                                                             Centers for Medicare & Medicaid Services


FROM:                                                                                        /Brian P. Ritchie/
                                                                                             Assistant Inspector General for the
                                                                                               Centers for Medicare & Medicaid Services Audits


SUBJECT:                                                                                     Medicare Compliance Review of New York Downtown Hospital for the Period
                                                                                             July 1, 2008, Through December 31, 2010 (A-02-11-01022) and Medicare
                                                                                             Compliance Review of the University of Colorado Hospital for Calendar Years
                                                                                             2008 and 2009 (A-07-11-05009)


Attached, for your information are advance copies of two of our final reports for hospital
compliance reviews. We will issue these reports to New York Downtown Hospital and
University of Colorado Hospital within 5 business days.

These reports are part of a series of the Office of Inspector General’s hospital compliance
initiative, designed to review multiple issues concurrently at individual hospitals. These reviews
of Medicare payments to hospitals examine selected claims for inpatient and outpatient services.

If you have any questions or comments about these reports, please do not hesitate to contact me
at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov, or your staff may contact the
respective Regional Inspectors General for Audit Services:

New York Downtown Hospital
James P. Edert, Regional Inspector General for Audit Services, Region II
(212) 264-4620, email – James.Edert@oig.hhs.gov

University of Colorado Hospital
Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII
(816) 426-3591, email – Patrick.Cogley@oig.hhs.gov
Page 2 – Peter Budetti and Deborah Taylor

Attachment

cc:
Daniel Converse
Office of Strategic Operations and Regulatory Affairs,
Centers for Medicare & Medicaid Services
                                                              O FFICE OF A UDIT S ERVICES , R EGION II
                                                                J ACOB K. J AVITS F EDERAL B UILDING
                                                                     26 F EDERAL P LAZA , R OOM 3900
                                                                              N EW Y ORK, NY 10278
May 22, 2012

Report Number: A-02-11-01022

Mr. Frank Vutrano
Chief Financial Officer
New York Downtown Hospital
59 Maiden Lane, 6th Floor
New York, NY 10038

Dear Mr. Vutrano:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of New York Downtown
Hospital for the Period July 1, 2008, Through December 31, 2010. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Brenda Tierney, Audit Manager, at (518) 437-9390, extension 222, or through email at
Brenda.Tierney@oig.hhs.gov. Please refer to report number A-02-11-01022 in all
correspondence.


                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Frank Vutrano


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, Missouri 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  MEDICARE COMPLIANCE REVIEW
OF NEW YORK DOWNTOWN HOSPITAL
   FOR THE PERIOD JULY 1, 2008,
   THROUGH DECEMBER 31, 2010




                        Daniel R. Levinson
                         Inspector General

                            May 2012
                          A-02-11-01022
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. CMS contracts with Medicare contractors to, among other
things, process and pay claims submitted by hospitals.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

New York Downtown Hospital (the Hospital) is a 180-bed acute care hospital located in New
York, New York. Based on CMS’s National Claims History data, Medicare paid the Hospital
approximately $93 million for 7,099 inpatient and 25,180 outpatient claims for services provided
to beneficiaries during the period July 1, 2008, through December 31, 2010.

Our audit covered $7.6 million in Medicare payments to the Hospital for 127 inpatient and 59
outpatient claims that we identified as potentially at risk for billing errors. These 186 claims had
dates of service from July 1, 2008, through December 31, 2010.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 128 of the 186 claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for 58
selected inpatient and outpatient claims, resulting in overpayments totaling $423,978 for the
period July 1, 2008, through December 31, 2010. Specifically, 22 inpatient claims had billing
errors resulting in overpayments totaling $423,978, and 36 outpatient claims had billing errors
that did not result in any overpayments.

Overpayments occurred primarily because the Hospital did not have adequate controls to prevent
incorrect billing of Medicare claims and its staff did not fully understand the Medicare billing
requirements.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $423,978 and

   •   strengthen controls to ensure full compliance with Medicare requirements.

NEW YORK DOWNTOWN HOSPITAL COMMENTS

In written comments on our draft report, the Hospital agreed with our findings and described
actions that it has taken or planned to take to address them. The Hospital did not agree with our
characterizing one outpatient claim that the Hospital incorrectly billed as an inpatient claim as
being due to human error. The Hospital stated that the error occurred because its billing
department was not notified of the patient’s change in status. The Hospital also stated that
although documentation was missing for the one inpatient claim with hospital-acquired
conditions, it believes that all services provided were appropriate. The Hospital’s comments
appear in their entirety as the Appendix.




                                                ii
                                                   TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         The Medicare Program ..................................................................................................1
         Hospital Inpatient Prospective Payment System ..........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         New York Downtown Hospital .....................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................4

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Inpatient Short Stays ......................................................................................................5
          Inpatient Same-Day Discharges and Readmissions .......................................................5
          Inpatient Claims Paid in Excess of Charges ..................................................................6
          Inpatient Claims With High Severity Level Diagnosis-Related Group Codes ..............6
          Inpatient Claims With Hospital-Acquired Conditions ...................................................6

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................7
          Outpatient Claims Billed With Modifier -59 .................................................................7

      RECOMMENDATIONS .......................................................................................................7

      NEW YORK DOWNTOWN HOSPITAL COMMENTS .....................................................7

APPENDIX

       NEW YORK DOWNTOWN HOSPITAL COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

The Medicare Program

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.

2
    In 2009, SCHIP was formally redesignated as the Children’s Health Insurance Program.


                                                         1
identify and group the services within each APC group. 3 All services and items within an APC
group are comparable clinically and require comparable resources.

Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments to hospitals reviewed by this and related audits
included payments for claims billed for:

    •   inpatient same-day discharges and readmissions,

    •   inpatient short stays,

    •   inpatient claims paid in excess of charges,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient claims with payments greater than $150,000,

    •   outpatient claims billed during an inpatient stay,

    •   outpatient evaluation and management service claims billed with surgical services,

    •   outpatient claims billed with modifier -59,

    •   outpatient claims paid in excess of charges, and

    •   outpatient and inpatient manufacturer credits for replaced medical devices.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.


3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                        2
Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

New York Downtown Hospital

New York Downtown Hospital (the Hospital) is a 180-bed acute care hospital located in New
York, New York. Based on CMS’s National Claims History data, Medicare paid the Hospital
approximately $93 million for 7,099 inpatient and 25,180 outpatient claims for services provided
to beneficiaries during the period July 1, 2008, through December 31, 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $7,619,221 in Medicare payments to the Hospital for 127 inpatient and 59
outpatient claims that we identified as potentially at risk for billing errors. These 186 claims had
dates of service from July 1, 2008, through December 31, 2010.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We based our review on selected billing requirements and did
not include a focused medical review to determine whether the services were medically
necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review enabled us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from May through July 2011.




                                                 3
Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
       Claims History file for the period July 1, 2008, through December 31, 2010;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 186 claims (127 inpatient and 59 outpatient) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 128 of the 186 claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for 58
selected inpatient and outpatient claims, resulting in overpayments totaling $423,978 for the
period July 1, 2008, through December 31, 2010. Specifically, 22 inpatient claims had billing


                                                4
errors resulting in overpayments totaling $423,978, and 36 outpatient claims had billing errors
that did not result in any overpayments.

Overpayments occurred primarily because the Hospital did not have adequate controls to prevent
incorrect billing of Medicare claims and its staff did not fully understand the Medicare billing
requirements.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 22 of the 127 sampled inpatient claims that we
reviewed. 4 These errors resulted in overpayments totaling $423,978.

Inpatient Short Stays

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Section 1814(a)(3) of the Act
states that payment for services furnished to an individual may be made only to providers of
services that are eligible and only if, “with respect to inpatient hospital services ... which are
furnished over a period of time, a physician certifies that such services are required to be given
on an inpatient basis for such individual’s medical treatment ….”

For 11 of the 34 sampled claims, the Hospital incorrectly billed Medicare Part A for inpatient
claims that should have been billed as outpatient or outpatient-with-observation services
(10 claims) or did not have a valid physician order to admit the beneficiary for inpatient care
(1 claim). The Hospital stated that it provided the services in an inpatient setting because, at the
time, Hospital staff believed it was necessary for the patients’ care. As a result, the Hospital
received overpayments totaling $107,662. 5

Inpatient Same-Day Discharges and Readmissions

The Manual, chapter 3, section 40.2.5, states:

         When a patient is discharged/transferred from an acute care Prospective Payment System
         (PPS) hospital and is readmitted to the same acute care PPS hospital on the same day for
         symptoms related to, or for evaluation and management of, the prior stay’s medical
         condition, hospitals shall adjust the original claim generated by the original stay by
         combining the original and subsequent stay on a single claim.


4
 The total number of claims reviewed in each of the error categories (94 sample claims) does not equal the total
number of inpatient claims reviewed (127 sample claims) because not all of the categories we reviewed contained
errors.
5
  The Hospital may bill Medicare Part B for a limited range of services related to some of the 10 incorrect Medicare
Part A short-stay claims billed as outpatient or outpatient-with-observation services. We were unable to determine
the effect that billing Medicare Part B would have on the overpayment amount because these services had not been
billed or adjudicated by the MAC prior to the issuance of our report.


                                                         5
Section 1814(a)(3) of the Act states that payment for services furnished to an individual may be
made only to providers of services that are eligible and only if, “with respect to inpatient hospital
services … which are furnished over a period of time, a physician certifies that such services are
required to be given on an inpatient basis for such individual’s medical treatment ….”

For 8 of the 15 sampled claims, the Hospital billed Medicare separately for related discharges
and readmissions within the same day (7 claims) or lacked a valid physician order to admit a
beneficiary for inpatient care (1 claim). The Hospital stated that the errors occurred because an
existing billing system edit did not function as designed. As a result, the Hospital received
overpayments totaling $114,744.

Inpatient Claims Paid in Excess of Charges

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For one of the eight sampled claims, the Hospital incorrectly billed Medicare for a claim that
should have been billed as outpatient. The Hospital stated that this error occurred because of
human error. As a result, the Hospital received an overpayment totaling $34,409.

Inpatient Claims With High Severity Level Diagnosis-Related Group Codes

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 1 of the 20 sampled claims, the Hospital incorrectly billed Medicare for a claim with an
incorrect DRG code. The Hospital stated that this error occurred because of human error. As a
result, the Hospital received an overpayment totaling $17,614.

Inpatient Claims With Hospital-Acquired Conditions

Section 1815(a) of the Act precludes payment to any provider unless it has furnished information
to determine the amount due to the provider.

For 1 of the 17 sampled claims, the Hospital billed Medicare for services for which
documentation did not support the services provided. Specifically, the medical record lacked
documentation to support diagnoses, services, and/or procedures billed. The Hospital stated that
the error occurred because of human error. As a result, the Hospital received an overpayment
totaling $149,549.




                                                  6
BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 36 of 59 sampled outpatient claims that we
reviewed. 6 There were no overpayments associated with these billing errors.

Outpatient Claims Billed With Modifier -59

The Manual, chapter 23, section 20.9.1.1, states: “The ‘-59’ modifier is used to indicate a
distinct procedural service …. This may represent a different session or patient encounter,
different procedure or surgery, different site, or organ system, separate incision/excision, or
separate injury (or area of injury in extensive injuries).” The Manual, chapter 1, section 80.3.2.2,
requires that claims be completed accurately to be processed correctly and promptly.

For 36 of the 37 sampled claims, the Hospital incorrectly billed Medicare for HCPCS codes that
did not require modifier -59. The Hospital stated that these errors occurred primarily because it
did not have an edit in place to flag the claims for additional review by coding staff, or because
of human error. There were no overpayments associated with these billing errors.

RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $423,978 and

    •   strengthen controls to ensure full compliance with Medicare requirements.

NEW YORK DOWNTOWN HOSPITAL COMMENTS

In written comments on our draft report, the Hospital agreed with our findings and described
actions that it has taken or planned to take to address them. The Hospital did not agree with our
characterizing one outpatient claim that the Hospital incorrectly billed as an inpatient claim as
being due to human error. The Hospital stated that the error occurred because its billing
department was not notified of the patient’s change in status. The Hospital also stated that
although documentation was missing for the one inpatient claim with hospital-acquired
conditions, it believes that all services provided were appropriate. The Hospital’s comments
appear in their entirety as the Appendix.




6
 The total number of claims reviewed in the error category (37 sample claims) does not equal the total number of
outpatient claims reviewed (59 sample claims) because not all of the categories we reviewed contained errors.


                                                        7
APPENDIX
                                                                                                                        Page 1 0[2


         APPEN DIX: NEW YORK DOWNTOWN HOSPIT AL COMMENTS 





      DOWNTOWN 

           HOS PITAL 


     4!4I2U1 2


     Re port Number: A· 02- 11-01022

     Bren da T icmey
     Audit Manager
     Omcc of Inspector Gel1t'r~ 1
     Jacob K J:Il' i15 Fcdcml 8ui lding
     26 Federal Pla/a- Room      )\){)IJ
     New York. NY 10038


     Dear Ms T it'1llc)':

     New York Dowl1lown Hospital is in receipt o f and h:IS rt'\' le'o'eU the findings of the US­
     Dcpanment o f Heal th anJ Human Services. omce of Inspector General (O IG). and drall reporl
     cntilled Me.itcwy., COlII(lliwlCC ReI'jew of New "or/; {)O W",OI\ll flospi/llllm- I/'e PI'ri",' )11(1' I,
     ] {j()8 Tlirollgh /)cccmhe,. Jf, 1010. A s r("tlucstl;!([ LJy yo ur office. New Y urk OoWIIIO\\'I1 HIJ.~p il a l
     has rCI·icwe.:l th c rccomnu.:mlalions alld has includ.:d a SI:ttcmcnl for each OCCU1Tcncc below'

         Inpa tie nl S hnrl S ia l'S: 

         New York Downtow n Hospital 3.i:\rccs wilh your findin gs. Recentl y, Ihe fileility has IIlcreascd 

         its dfort s to conduct medical necessily rc\'iews of all short slays admissions. Thc hospilal has 

         a physician rcvi ewing Ihese short stay admissions ;md Ims illicilstfieu its effurt with Ihe 

         uli li1.alion cuillm ill tt. 


         Inpat ient S:lIl1C- IlOl \' Discharges and Readmissi9ns: 

         New York Dow ntuwn Hosp ital ilsrccs II ith your I'lildings. The~t: errors ,I":,:ul'r,,d beca use o ll r 

         sys te m edil tu nag rC-ild l1l i~s i u n s wus no t funcliolling as dc signl:'l.l; II'r hal e since re­

         configured t h~ cdit to approp riatel y Ilag and hold ad missio ns wi lhin thill Yda ys of Ji~ch ~lrSe. 


         In palieul Cla illl ~ Pa id in F.xcess of C harges: 

         New York Downtown Hospi tal agrees with your findings. however. we di sagree with the 

         characteriza ti on of huma n error_ The identified C;ISC was rcviewrd by our phYS1Cl<11l ;ldviscr 

         prwr to billing and it was dl;'lerrn incd thai Ihc adnllsslon should IJHVC been downgrao:l~ 10 ,Ill
         Ouqlatielll staluS: ho\\cvcr. the hi lli ng departm ent "as not notified. The hospital wants \0
         r ill phasizc Ih:1I it does hu \'c a notificatio n poliCY in Illoct: w hen accounts stalus Ilccds to hI'
         changed fwm Inl),II ICIII to oUlpalienl 51a1llS. Unfoll un:l1e1y. in Ihis C:l5e. Ihe billing tlcpan lllL11t
         was nOI notilicd. Malla~el11ent will follow up \\ llh thc limeli ness of snch notifi.::ahuns.




1­
                                                                                                              Page 2 of2




!l1Im'ienl Cla ims willi High Srvrrih ' Lr \'r l Rr la lrd Cro up Codes:
 New York Downtown Hospital agrees with your findings. This was The result ora eodin¥ CI1"Of
where the principnl diagno~i~ wn$ incorrectly assigned. Our coding !;!aff has heen lIl·serl'iceti
rcgardillg the sekction orthe principal diagnosis.

In!l:lTienT Clai ms w ith liospita J-J\ r tJui rr d Condition:
Your findin g on Ihi.~ case ~tale~ th31 Ihe medic;]1 record lackeJ do tu IllC!lta!IO!I to !;UPpllr!
di;lgnosis, serVIces, <lmJlor proccJ ure 5 billed. Parts ufthe llledic<J1 record could not be located:
the rcvicwcl's wcrc Ulmbk to I'ulid:llt· somc of Ih~ s~rvin·s thill WCT(· p~·rrorillcd. I,.;nfo!tun;ltc ly.
thc comp!.:l\' mcdic:!1 record could not be loeulcd 'J! tlw (lff·sik· shlra gc fa'::ility :tlkr scvcrul
a llemplS \\we IHade. However. the hospitil! bel ieves Ihlll all services provided were
appropriaTe.

O utpat ient Cla ims Hilled With MudiJier :
Ncw York Downtowil Hospitnl agrees with you r findings, however, we would like to nO le thM
sOllie of Iht, codi ng gllidelines regarding Ibe usc or Illodifkr 59 when )'\~lIro sti mul ators arc
i mp l alll~J arc so mewha t amb ig uou s. As a resu lt or thi s audit. wc bave rccciH'II dari 1il'atiOll
from IIII' RA e mon itor and ot her coding eonsu hal\1S regn rding the USI:' of m0difi~r 59. Our
coding sla ff h:1S been in~scr\'iccd regarding the appropriate USI:' of modi fier 51) and we <lfe in the
process of obtilining and imlllenll:::111 ing an Oulpatient coding eOlllplinllel' too l which is
dt'sigm:J to nag tbese types of errors.

We would !ike to tlwn k yo u for your support and cooperaTion durin,g Ihis <lUllit r~\'icw . If yo u
have ,my qucstiolls. please do nol hesilnle 10 eontacllnc at212-3 11-5()46.




ff~
Fri\nk Vulnlllo 

Seni or Viet! I'resiJcnL Chief Financial Offiecr 

